LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

October 30, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re 1341:

Richard A. Van Auken, Trustee and Richard A. VanAuken,
Beneficiary v. Fletcher R. Catron, Esq.; Peter F. Wirth, Esq.;
and Karen Aubrey, Esq.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Petition for
Rehearing referenced above contains 2,975 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

LISA KAY NICHOLSON
Notary Public
State of Maryland
Montgomery County
My commissian exp. October 12,2022

©

Sworn and subscribed before me this 30th day of October 2020.

